VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                          Review of 

                                                                        Alleged Data 

                                                                      Manipulation at the 

                                                                        Los Angeles 

                                                                      VA Regional Office 





                                                                                        September 18, 2014
                                                                                           14-03736-273
                                  ACRONYMS

FY           Fiscal Year
OIG          Office of Inspector General
VA           Veterans Affairs
VARO         VA Regional Office
VBA          Veterans Benefits Administration
VSR          Veterans Service Representative




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                          Telephone: 1-800-488-8244 

                         E-Mail: vaoighotline@va.gov

          (Hotline Information: www.va.gov/oig/contacts/hotline.asp)

                                       TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................. i
 

Results and Recommendations ........................................................................................................1
 

    Allegation          Did Los Angeles VARO management instruct staff to falsify records to
                        make it appear that documentation to support veterans’ claims was
                        properly requested? .............................................................................................1 

                        Recommendations ...............................................................................................2 

Appendix A              Management Comments......................................................................................4 

Appendix B              OIG Contact and Staff Acknowledgments..........................................................5 

Appendix C              Report Distribution .............................................................................................6 
                            EXECUTIVE SUMMARY 



On June 24, 2014, the Office of Inspector General received an anonymous allegation that
Los Angeles VA Regional Office (VARO) management instructed staff to manipulate data to
meet a Veterans Benefits Administration (VBA) claims processing timeliness goal. This
allegation involved claims assigned to Veterans Service Representatives (VSRs) for processing
on May 2, 2014. The complainant alleged that management told staff to update VBA’s
electronic system to make it appear that VARO staff properly requested documentation to
support veterans’ claims, although no actions were actually taken to obtain the required
evidence.

We did not substantiate the allegation that management instructed staff to input incorrect data in
VBA’s electronic system. We determined VARO management provided written instructions to
the assigned VSRs on initiating development of evidence to process 183 claims. However, we
found that one of the seven VSRs assigned this workload had made entries in VBA’s electronic
system to reflect documentation had been requested to support veterans’ claims, although the
employee took no actions to obtain the required evidence. This VSR acknowledged
manipulating data for claims, stating this was done to comply with verbal instructions from
management.

Based on our review, we concluded one employee misunderstood management’s instructions and
made improper entries in VBA’s electronic system. Since the errors were the result of one
individual, we did not consider this a systemic issue. However, given the nature and seriousness
of the employee’s claims processing errors, we recommended that the VARO Director take
action to correct the fourteen errors the employee introduced in the electronic records on the
claims processed. We also recommended the Director ensure monitoring of all employees’ work
to ensure that all future work is performed in accordance with VBA policy.




LINDA A. HALLIDAY
Assistant Inspector General
for Audits and Evaluations




                                                i
                                       Review of Alleged Data Manipulation at the Los Angeles VARO



                    RESULTS AND RECOMMENDATIONS
Allegation 	        Did Los Angeles VARO management instruct staff to
                    falsify records to make it appear that documentation to
                    support veterans’ claims was properly requested?

                    On June 24, 2014, the Office of Inspector General received an anonymous
                    allegation that Los Angeles VA Regional Office (VARO) management
                    instructed staff to manipulate data to meet a Veterans Benefits
                    Administration (VBA) claims processing timeliness goal. Specifically, the
                    complainant alleged that management told staff to update VBA’s electronic
                    system to make it appear that VARO staff properly requested documentation
                    to support veterans’ claims, although no actions were actually taken to obtain
                    the required evidence.

What We Did         We conducted an unannounced site visit to the Los Angeles VARO to assess
                    the merits of the allegation. We obtained and reviewed the emails sent,
                    which provided instructions on initiating development of 183 pending claims
                    as of May 2, 2014. We interviewed seven Veterans Service Representatives
                    (VSRs) responsible for developing these claims. We interviewed VARO
                    management responsible for providing the guidance. Further, we examined
                    the 183 pending cases to determine whether staff took appropriate actions to
                    gather the supporting evidence needed.

What We             We found no evidence that Los Angeles VARO management instructed the
Found               VSRs to manipulate data to meet claims processing timeliness goals. A
                    VARO team supervisor assigned 183 claims to seven VSRs to complete
                    initial development for evidence on May 2, 2014. These claims represented
                    the number of cases management requested the team to complete that day in
                    order to assist with meeting production goals. We were able to obtain the
                    email sent to VSRs on May 2, 2014, and determined that it did not instruct
                    them to manipulate claims processing data. During our interviews, six of the
                    VSRs denied receiving verbal instructions to make entries in the electronic
                    record of the need to gather specific evidence to support veterans’ claims, but
                    not to take actions to obtain the evidence.

                    However, one VSR made entries in VBA’s electronic system to make it
                    appear as though documentation had been requested to support veterans’
                    claims although no corresponding actions were taken to obtain the required
                    evidence. When questioned, this VSR acknowledged manipulating the data
                    for the referenced claims, and was unaware of any plan to follow up on these
                    claims. The VSR further noted that management had indicated the most
                    important task was to make the system entries. Manipulating the data in this
                    manner falsified the elapsed time between when the claim was established
                    and when VARO staff actually initiated work on the claim by requesting the

VA Office of Inspector General                                                                   1
                                       Review of Alleged Data Manipulation at the Los Angeles VARO


                    necessary evidence. This also showed the VARO acted more timely in
                    processing claims than it actually had.

                    Managers who provided the guidance to process this specific assignment of
                    claims denied instructing staff to manipulate data. Further, one manager
                    conceded staff could have misinterpreted the instructions given the emphasis
                    placed on entering the actions in the electronic record.

                    Our review of the 183 cases in the electronic record showed that
                    14 (8 percent) had improper entries. These entries made it appear as though
                    evidence had been requested to support the pending claims, although no such
                    actions had been taken. The VSR responsible for the 14 entries was the same
                    employee who had discussed receiving instructions to manipulate the data for
                    these cases processed on May 2, 2014.

                    Based on our interviews and examination of the 183 cases processed, we did
                    not substantiate the allegation that management directed the entry of false
                    information. We concluded that one VSR misunderstood management’s
                    instructions and improperly entered data in the electronic records regarding
                    initiation of claims development. Such data manipulation was limited to
                    errors in 14 claims by one VSR. Thus, we did not consider this a systemic
                    issue.

                    Given the nature and seriousness of the employee’s claims processing error,
                    we believe immediate action is needed to review and correct as appropriate
                    all entries the employee made in the electronic system on claims processed in
                    response to management’s direction. Further, moving forward, monitoring of
                    all employees’ work performance is critical to ensure that all future work is
                    carried out in accordance with VBA and management policy.

                    Recommendations

                    1.	 We recommended the Los Angeles VA Regional Office Director take
                        action to review and correct all entries the employee made in the
                        electronic system on the 14 claims we identified.
                    2.	 We recommended the Los Angeles VA Regional Office Director ensure
                        monitoring of all employees’ work for the future to ensure that all work is
                        performed in accordance with VBA policy.

Management          The VARO Director concurred with our recommendations and took
Comments            corrective action on all 14 claims we identified as inappropriately processed.
                    Further, staff were provided additional training and quality reviews to ensure
                    accurate processing of these claims.

OIG Response        The Director’s comments and actions are responsive to the recommendations.
                    We will follow up on management’s actions during future inspections.

VA Office of Inspector General                                                                   2
                                      Review of Alleged Data Manipulation at the Los Angeles VARO


Government          We conducted this review in accordance with the Council of the Inspectors
Standards           General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation except those assessing internal controls.




VA Office of Inspector General                                                                 3
                                                  Review of Alleged Data Manipulation at Los Angeles VARO


Appendix A             Management Comments


               Department of
               Veterans Affairs
                                                                  Memorandum
       Date:     September 2, 2014
       From:     Director, VA Regional Office Los Angeles, California

       Subj:     Review of Alleged Data Manipulation at the Los Angeles VARO, Los Angeles,
                 California
         To:     Assistant Inspector General for Audits and Evaluations (52)


                 1. The Los Angeles Regional Office (LARO) submits the following comments in
                 response to the OIG’s Draft Report. The LARO Director and staff concur with the
                 findings and each recommendation. Seven of the 14 irregularities were corrected in
                 conjunction with the out briefing of the OIG visit. The other seven were corrected
                 when we were made aware of their identity by the OIG team. Other actions include:

                 	   We have worked with the employee who had misinterpreted the guidance from
                      management.
                 	   We have taken steps to ensure accurate processing and have applied additional
                      training and Quality Review Team (QRT) review procedures.
                 	   Supervisory staff have initiated spot reviews of work being completed by team
                      members at every touch point.
                 	   Additional huddles are conducted to ensure accurate understanding of guidance
                      that is provided by management.
                 	   Our QRT maintains a list of new guidance and procedures to perform a quick
                      reference cross-check for comprehension of guidance and procedures.
                 	   Errors found by the QRT in the performance of their reviews are treated as training
                      and immediate feedback opportunities for employees.

                 2. Thank you for your attention to this issue and the opportunity to review the draft
                 report. Feel free to contact me at 310.235.7696 should you have any questions.

                 Sincerely,

                 (original signed by:)

                 ROBERT W. McKENRICK

                 Director





VA Office of Inspector General                                                                              4
                                         Review of Alleged Data Manipulation at Los Angeles VARO


Appendix B          OIG Contact and Staff Acknowledgments


                      OIG Contact 	       For more information about this report, please
                                          contact the Office of Inspector General at (202)
                                          461-4720
                      Acknowledgments	    Brent Arronte, Director
                                          Brett Byrd
                                          David Pina
                                          Rachel Stroup
                                          Dana Sullivan




VA Office of Inspector General                                                                5
                                         Review of Alleged Data Manipulation at Los Angeles VARO


Appendix C          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Director, Los Angeles VA Regional Office
                    Director, Veterans Benefits Administration, Western Area Headquarters

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Barbara Boxer, Dianne Feinstein
                    U.S. House of Representatives: 	Karen Bass, Xavier Becerra, Ami Bera,
                      Julia Brownley, Ken Calvert, John Campbell, Lois Capps, Tony Cardenas,
                      Judy Chu, Paul Cook, Jim Costa, Susan Davis, Jeff Denham,
                      Anna G. Eshoo, Sam Farr, John Garamendi, Janice Hahn, Mike Honda,
                      Jared Huffman, Duncan D. Hunter, Darrell Issa, Doug LaMalfa,
                      Barbara Lee, Zoe Lofgren, Alan Lowenthal, Doris O. Matsui,
                      Kevin McCarthy, Tom McClintock, Buck McKeon, Jerry McNerney,
                      Gary Miller, George Miller, Grace Napolitano, Gloria Negrete McLeod,
                      Devin Nunes, Nancy Pelosi, Scott Peters, Dana Rohrabacher,
                      Lucille Roybal-Allard, Ed Royce, Raul Ruiz, Linda Sanchez,
                      Loretta Sanchez, Adam Schiff, Brad Sherman, Jackie Speier, Eric
                      Swalwell, Mark Tokano, Mike Thompson, David Valadao, Juan Vargas,
                      Maxine Waters, Henry Waxman


              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                6
